/.~~.~
/'gtS~ DEPARTMENT OF HEALTH
          DEPARTMENT        &.&.HUMAN
                     OF HEALTH   HUMANSERVICES

                                       SERVICES                                                                     Office of Inspector
                                                                                                                              Inspector General
\\~~
  ~l­
 .......~It

..1-~1t
          ;lIf''''iO
           :tt~"JQ                                                                                                  Washington, D.C.
                                                                                                                    Washington,
                                                                                                                                        General


                                                                                                                                D.C. 20201
                                                                                                                                     20201




                                                                       DEC - 8  2008
                                                                       DEC - 8 2008


                       TO:               Kerry Weems
                                         Kerry

                                         Acting Administrator



                       FROM:              oseph E.
                                                E. Vengrin
                                                   Vengrn
                                                          ~              Services
                                         Centers for Medicare & Medicaid Services

                                                          ~
                                         Deputy Inspector General for Audit Services
                                                                            Services


                       SUBJECT:          Review of High-Dollar Payments for Outpatient Services Processed by
                                         Review of


                                         First Coast Service Options, Inc., for the Period January 1,
                                                                                                   1, 2004, Through
                                         December 31,2005
                                         December    31,2005 (A-04-08-06008)


                       Attached is an advance copy of                 of our final report on high-dollar payments for outpatient services
                       processed by First Coast Service         Service Options,
                                                                            Options, Inc.
                                                                                      Inc. (First Coast),
                                                                                                  Coast), for the period January 1, 1, 2004,
                       through December 31,           31, 2005.
                                                            2005. TheseThese claims
                                                                                claims were submitted by providers
                                                                                                            providers in
                                                                                                                       in Florida.
                                                                                                                          Florida. We will
                       issue this report to       to First
                                                      First Coast
                                                              Coast within
                                                                         within 55 business
                                                                                    business days.
                                                                                             days. This audit
                                                                                                          audit was
                                                                                                                was part
                                                                                                                     par of
                                                                                                                         of aa nationwide
                       review      of excessive
                       review of excessive payments for payments        forofoutpatient
                                                        outpatient services   
         services of $50,000 or more (high-dollar payments).

                       Our objective was to determine whether high-dollar Medicare payments that First Coast made to
                       hospitals for outpatient services were appropriate.

                       Of
                       Of  the 40 high-dollar payments that First Coast made for outpatient services for calendar years
                       (CY)
                       (CY) 2004   and 2005,
                              2004 and 2005, 23
                                              23 were
                                                 were appropriate.    The remaining
                                                       appropriate. The    remaining 1717 payments
                                                                                          payments included
                                                                                                     included overpayments
                                                                                                               overpayments
                                $1,498,529, which
                       totaling $1,498,529,  which the
                                                    thehospitals
                                                        hospitalshad
                                                                   hadnotnotrefunded
                                                                             refuded by the beginning of our audit.
                                                                                                                audit. The
                                          these overpayments
                       hospitals received these overpayments by by billing
                                                                     billing excessive
                                                                             excessiveunits
                                                                                        unts of service.
                                                                                                service. First
                                                                                                         First Coast
                                                                                                               Coast made
                       these incorrect payments because neither the Fiscal Intermediary Standard System nor the
                       Common Working File had sufficient      edits in
                                                     suffcient edits  in place
                                                                         place durng
                                                                                duringCY
                                                                                       CYs  2004 and
                                                                                          s 2004  and 2005 to detect and
                       prevent the overpayments.

                       We recommend that First Coast recover the $1,498,529 in identified overpayments.

                       In written comments on
                          wrtten comments   on our
                                                our draft
                                                    draft report,
                                                           report, First
                                                                   First Coast
                                                                         Coast stated
                                                                               stated that
                                                                                      that itit had adjusted
                                                                                                    adjusted the identified
                       outpatient claims and initiated its standard overpayment recovery procedures to recover the
                       overpayments.

                       If
                       If you have any questions or comments about this report, please do not hesitate to call me, or
                       your staff
                            staff may contact George M. Reeb, Assistant Inspector General for the Centers for
                       Medicare & & Medicaid Audits, at (410) 786-7104 or through e-mail at George.Reeb@oig.hhs.gov
                                                                                            George.Reebrgoig.hhs.gov
Page 2 – Kerry Weems


or Peter J. Barbera, Regional Inspector General for Audit Services, Region IV, at (404) 562-7750
or through e-mail at Peter.Barbera@oig.hhs.gov. Please refer to report number A-04-08-06008.


Attachment
                                    DEPARTMENT OF
                                    DEPARTMENT OFHEALTH
                                                  HEALTHAND
                                                         ANDHUMAN
                                                             HUMANSERVICES
                                                                   SERVICESOffceOffice
                                                                                of Inspector     General
                                                                                       of Inspector General
        \4 stllVlC'IS
                                                                                                                              Offce of
                                                                                                                              Office of Audit
                                                                                                                                        Audit Services
                                                                                                                                              Services

                                                                                                                                  REGION
                                                                                                                                  REGION IV
(g~."ot                                                                                                              61
                                                                                                                     61 Forsyth Street,
                                                                                                                                Street, S.W.,
                                                                                                                                        S.W., Suite
                                                                                                                                              Suite 3T41
                                                                                                                                                    3T41
    ~:;
~ol..                                                                                                                     Atlanta, Georgia
                                                                                                                                    Georgia 30303
                                                                                                                                            30303

                                                                     DEC
                                                                     DEC 1122 2008

                                                                               2008
                     Number: A-04-08-06008
              Report Number:

              Ms. Sandy
                   Sandy Coston
                          Coston

              President
              First Coast
                    Coast Service Options, Inc.
              532 Riverside Avenue, 20 T
              Jacksonville, Florida
              Jacksonville, Florida 32202

              Dear
              Dear Ms. Coston:
                   Ms. Coston:



              Enclosed
              Enclosed is the is
                              U.S.the  U.S.of Department of Health
                                   Deparment                                    andServices
                                                                    Health and Human Human   (HHS),Services
                                                                                                    Offce of 
   (HHS), Office of Inspector
              General
              General (OIG),(OIG),     final
                             final report       report
                                          entitled "Review entitled
                                                           of 
     "Review of High-Dollar Payments for Outpatient Services
              Processed by First Coast       Coast Service
                                                       Service Options,
                                                                   Options, Inc.,
                                                                               Inc.,for
                                                                                      forthethePeriod
                                                                                                   PeriodJanuary
                                                                                                              Januar 1,
                                                                                                                     1, 2004, Through
              December 31,
              December           31,2005."
                                       2005." We will    wil forward
                                                                forwardaacopycopyof  ofthis
                                                                                        thisreport
                                                                                                report to to the
                                                                                                               the HHS action official
                                                                                                                               official noted
                                                                                                                                        noted on
              the following page for review and any action deemed necessary.

              The HHSHHS action official  offcial wilwillmakemakefinalfinaldetermination
                                                                               determinationas asto
                                                                                                  toactions
                                                                                                     actions taken
                                                                                                              taken on
                                                                                                                    on all
                                                                                                                       all matters
                                                                                                                           matters reported.
                                                                                                                                    reported.
              We    request
              We request that y~uthat   y~u
                                  respond      respond
                                          to this            to this
                                                  offcial within 30 daysofficial    within
                                                                         from the date of                                  letter. Your
                                                                                           30 days from the date of this letter.
              response should present any comments or additional information that you believe may have a
              bearing on the    the final determination.

              Pursuant
              Pursuant to theto  the principles
                              principles of         of the   Freedom
                                                       the Freedom of 
  of Information Act, 5 U.S.C. § 552, as amended by
              Public Law 104-231, OIG reports generally are made available to the public to the extent the
              information is      is not subject
                                            subject to
                                                    to exemptions
                                                        exemptions in   inthe
                                                                           theAct
                                                                               Act(45
                                                                                   (45CFR
                                                                                       CFRpart
                                                                                            par 5).
                                                                                                5). Accordingly,
                                                                                                    Accordingly, this report
              will be posted on the Internet at http://oig.hhs.gov.

              If you have any questions or comments about this report, please do not hesitate to call me, or
              If
              contact Mary
              contact Mar An  Moreno,
                            Ann Moreno,Audit
                                          AuditManager,
                                                Manager,atat(404)(404)562-7770
                                                                       562-7770or
                                                                                orthrough
                                                                                   through e-mail
                                                                                           e-mail at
              Mary.Morenorgoig.hhs.gov. Please
              Mary.Moreno@oig.hhs.gov.      Please refer
                                                    refer to
                                                           to report
                                                              report number
                                                                     number A-04-08-06008
                                                                             A-04-08-06008 in all
              correspondence..
              correspondence. .

                                                                           Sincerely,

                                                                          tF~9(ß~
                                                                           Peter J. Barbera
                                                                           Regional Inspector General
                                                                                      Services
                                                                            for Audit Services


              Enclosure
Page 2 – Ms. Sandy Coston


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 




   REVIEW OF HIGH-DOLLAR 

  PAYMENTS FOR OUTPATIENT 

 SERVICES PROCESSED BY FIRST 

 COAST SERVICE OPTIONS, INC.,

       FOR THE PERIOD 

  JANUARY 1, 2004, THROUGH 

     DECEMBER 31, 2005 





                    Daniel R. Levinson

                     Inspector General 


                      December 2008

                      A-04-08-06008

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                            Notices
                            Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information
                                              Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
                                                             part 5).
information is not subject to exemptions in the Act (45 CFR part

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices
                                              practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS), which administers the program,
contracts with fiscal intermediaries to process and pay Medicare Part B claims submitted by
hospital outpatient departments. The intermediaries use the Fiscal Intermediary Standard System
and CMS’s Common Working File (CWF) to process claims. The CWF can detect certain
improper payments during prepayment validation.

Medicare guidance requires hospitals to claim outpatient services using the appropriate
Healthcare Common Procedure Coding System codes and to report units of services as the
number of times that a service or procedure was performed.

During our audit period (calendar years (CY) 2004 and 2005), First Coast Service Options, Inc.
(First Coast), was the fiscal intermediary in Florida. First Coast processed 6.9 million outpatient
claims during this period, 40 of which resulted in payments of $50,000 or more (high-dollar
payments).

OBJECTIVE

Our objective was to determine whether high-dollar Medicare payments that First Coast made to
hospitals for outpatient services were appropriate.

SUMMARY OF FINDING

Of the 40 high-dollar payments that First Coast made for outpatient services for CYs 2004 and
2005, 23 were appropriate. The remaining 17 payments included overpayments totaling
$1,498,529, which the hospitals had not refunded by the beginning of our audit. The hospitals
received these overpayments by billing excessive units of service. First Coast made these
incorrect payments because neither the Fiscal Intermediary Standard System nor the CWF had
sufficient edits in place during CYs 2004 and 2005 to detect and prevent the overpayments.

RECOMMENDATION

We recommend that First Coast recover the $1,498,529 in identified overpayments.

FIRST COAST SERVICE OPTIONS COMMENTS

In written comments on our draft report, First Coast stated that it had adjusted the identified
outpatient claims and initiated its standard overpayment recovery procedures to recover the
overpayments. The complete text of First Coast’s comments is included as the Appendix.




                                                  i
                                                   TABLE OF CONTENTS

                                                                                                                                 Page

INTRODUCTION................................................................................................................1

     BACKGROUND .............................................................................................................1
       Medicare Fiscal Intermediaries..................................................................................1
       Claims for Outpatient Services ..................................................................................1
       First Coast Service Options, Inc. ...............................................................................1

     OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................1
       Objective ...................................................................................................................1
       Scope..........................................................................................................................2
       Methodology ..............................................................................................................2

FINDING AND RECOMMENDATION...........................................................................2

     FEDERAL REQUIREMENTS........................................................................................3

     INAPPROPRIATE HIGH-DOLLAR PAYMENTS .......................................................3

     CAUSES OF OVERPAYMENTS...................................................................................3

     FISCAL INTERMEDIARY PREPAYMENT EDIT…………………………………...4

     RECOMMENDATION ...................................................................................................4

     FIRST COAST SERVICE OPTIONS COMMENTS .....................................................4

APPENDIX

     FIRST COAST SERVICE OPTIONS COMMENTS




                                                                      ii
                                      INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Fiscal Intermediaries

CMS contracts with fiscal intermediaries to, among other things, process and pay Medicare
Part B claims submitted by hospital outpatient departments. The intermediaries’ responsibilities
include determining reimbursement amounts, conducting reviews and audits, and safeguarding
against fraud and abuse. Federal guidance provides that intermediaries must maintain adequate
internal controls over automatic data processing systems to prevent increased program costs and
erroneous or delayed payments. To process hospitals’ outpatient claims, the intermediaries use
the Fiscal Intermediary Standard System and CMS’s Common Working File (CWF). The CWF
can detect certain improper payments during prepayment validations.

In calendar years (CY) 2004 and 2005, fiscal intermediaries processed and paid approximately
278 million outpatient claims, 989 of which resulted in payments of $50,000 or more (high-
dollar payments).

Claims for Outpatient Services

Medicare guidance requires hospitals to submit accurate claims for outpatient services.
Hospitals should use the appropriate Healthcare Common Procedure Coding System codes and
report units of service as the number of times that a service or procedure was performed.

First Coast Service Options, Inc.

During our audit period (CYs 2004 and 2005), First Coast Service Options, Inc. (First Coast),
was the fiscal intermediary in Florida. First Coast processed approximately 6.9 million
outpatient claims during this period, 40 of which resulted in high-dollar payments totaling
$3.3 million.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether high-dollar Medicare payments that First Coast made to
hospitals for outpatient services were appropriate.




                                               1
Scope

We reviewed the 40 high-dollar payments for outpatient claims that First Coast processed during
CYs 2004 and 2005. We limited our review of First Coast’s internal controls to those applicable
to the 40 high-dollar payments because our objective did not require an understanding of all
internal controls over the submission and processing of claims. Our review allowed us to
establish reasonable assurance of the authenticity and accuracy of the data obtained from the
National Claims History file, but we did not assess the completeness of the file.

We performed fieldwork from April 2007 through May 2008. Our fieldwork included contacting
First Coast, located in Jacksonville, Florida, and the hospitals that received the high-dollar
payments.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    used CMS’s National Claims History file to identify outpatient claims with high-dollar
        payments;

   •    reviewed available CWF claim histories for claims with high-dollar payments to
        determine whether the claims had been canceled and superseded by revised claims and
        whether payments remained outstanding at the time of our fieldwork;

   •    contacted the hospitals that received the high-dollar payments to determine whether the
        information on the claims was correct and, if not, why the claims were incorrect; and

   •    validated with First Coast that partial overpayments occurred and refunds were
        appropriate.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                           FINDING AND RECOMMENDATION

Of the 40 high-dollar payments that First Coast made for outpatient services for CYs 2004 and
2005, 23 were appropriate. The remaining 17 payments included overpayments totaling
$1,498,529, which the hospitals had not refunded by the beginning of our audit. The hospitals
received these overpayments by billing excessive units of service. First Coast made these
incorrect payments because neither the Fiscal Intermediary Standard System nor the CWF had
sufficient edits in place during CYs 2004 and 2005 to detect and prevent the overpayments.


                                                2
FEDERAL REQUIREMENTS

Section 9343(g) of the Omnibus Budget Reconciliation Act of 1986, P.L. No. 99-509, requires
hospitals to report claims for outpatient services using Healthcare Common Procedure Coding
System codes. CMS’s “Medicare Claims Processing Manual,” Publication No. 100-04, Chapter
4, section 20.4, states: “The definition of service units . . . is the number of times the service or
procedure being reported was performed.” In addition, Chapter 1, section 80.3.2.2, of this
manual states: “In order to be processed correctly and promptly, a bill must be completed
accurately.”

Section 3700 of the “Medicare Intermediary Manual” states: “It is essential that you [the fiscal
intermediary] maintain adequate internal controls over Title XVIII [Medicare] automatic data
processing systems to preclude increased program costs and erroneous and/or delayed
payments.”

INAPPROPRIATE HIGH-DOLLAR PAYMENTS

Hospitals reported excessive units of service on 17 claims, resulting in overpayments totaling
$1,498,529. The following examples illustrate the excessive units of service:

     •   A hospital billed three claims with a total of 72 units of service for 3 units delivered
         because of a clerical error. The hospital’s automated compliance software identified the
         error and notified the billing office. However, the billing clerks did not make the
         appropriate corrections. As a result, First Coast paid the hospital $324,416 when it
         should have paid $19,545, an overpayment of $304,871.

     •   A hospital billed 300 units of service rather than the 30 units delivered because of a
         software multiplication error that occurred when the hospital pharmacy’s electronic
         billing system changed. As a result, First Coast paid the hospital $50,057 when it should
         have paid $4,422, an overpayment of $45,635.

The hospitals attributed the incorrect claims to clerical errors or to pharmacy and billing systems
that could not detect and prevent the errors. The hospitals agreed that excessive units were billed
and that overpayments occurred.

CAUSES OF OVERPAYMENTS

During CYs 2004 and 2005, First Coast made the incorrect payments because neither the Fiscal
Intermediary Standard System nor the CWF had sufficient edits in place to detect and prevent the
overpayments. In effect, CMS relied on hospitals to notify the fiscal intermediaries of excessive
payments and on beneficiaries to review their “Explanation of Medicare Benefits” and disclose
any overpayments. 1


1
 The fiscal intermediary sends an “Explanation of Medicare Benefits” notice to the beneficiary after the hospital
files a claim for Part B service(s). The notice explains the service(s) billed, the approved amount, the Medicare
payment, and the amount due from the beneficiary.


                                                          3
FISCAL INTERMEDIARY PREPAYMENT EDIT

On January 3, 2006, after our audit period, CMS required intermediaries to implement a Fiscal
Intermediary Standard System edit to suspend potentially excessive Medicare payments for
prepayment review. The edit suspends high-dollar outpatient claims and requires intermediaries
to determine the legitimacy of the claims.

RECOMMENDATION

We recommend that First Coast recover the $1,498,529 in identified overpayments.

FIRST COAST SERVICE OPTIONS COMMENTS

In its October 8, 2008, written comments on our draft report, First Coast stated that it had
adjusted the identified outpatient claims and initiated its standard overpayment recovery
procedures to recover the overpayments. The complete text of First Coast’s comments is
included as the Appendix.




                                                 4
APPENDIX
APPENDIX
